NATIONAL CREDIT UNION ADMINISTRATION
      OFFICE OF INSPECTOR GENERAL



             NOTEBOOK PROCUREMENT AND
               WINDOWS 2000 MIGRATION
                      REVIEW
                  Report #OIG-01-07          July 10, 2001




                      __________________________
                                Frank Thomas
                              Inspector General




          Released by:          Auditor in Charge:            Auditor:
     William A. DeSarno          Tammy F. Rapp           Charles Funderburk
Assistant Inspector General     Senior IT Auditor          Senior Auditor
          for Audits

   ___________________        ___________________        ___________________
                         TABLE OF CONTENTS
                                                                                       Page

EXECUTIVE SUMMARY                                                                       i
INTRODUCTION                                                                            1
BACKGROUND                                                                              1
OBJECTIVES                                                                              5
SCOPE AND METHODOLOGY                                                                   5
OBSERVATIONS AND RECOMMENDATIONS                                                        8
      I. NOTEBOOK PROCUREMENT                                                           8
            NCUA Complied with Agreed Upon Methodology for Purchasing                   8
            Notebook Computers and Windows 2000
            NCUA complied with Simplified Procurement Procedures in the                 8
            procurement of notebook computers
            NCUA complied with proper procurement policy in the procurement of the     13
            Windows 2000 operating system
            Lease versus purchase analysis was limited                                 14
            Actual costs were below budget                                             14
            2000 budget did not accurately reflect the cost of Microsoft licenses      16
            Although equipment specifications evolved during the procurement           17
            process, they were reasonable
            Technical evaluation was sound                                             17
            Vendor solicitation selection complied with policies and procedures, but   18
            solicited vendor list was ad hoc
            Multiple amendments to RFQ were issued                                     19
            One day response time for BAFO                                             21
            Internal controls over the purchase requisition process were weak          21
            Acquisition planning hampered by time constraints                          21
            Considerations for future replacement of notebooks                         22
       II. WINDOWS 2000 MIGRATION                                                      24
            NCUA was Not Exposed to Unreasonable Risks by Implementing                 24
            Windows 2000 Early
            CIO has authority to make decisions about architecture                     24
            ISOC and OED were informed of impending decision to migrate to             26
            Windows 2000
            The benefits of migrating to Windows 2000 early outweighed the risks       27
            The best long term option available was to migrate to Windows 2000 with    31
            NCUA’s new hardware
            Project management and planning need to be enhanced                        31
            Insufficient evidence to determine the amount and level of testing         33
            performed
            The contingency plan to revert back to NT was questionable                 35
            NCUA rolled out an early release of a commercial version of Windows        36
            2000 – this early release was the same as the public release on February
            17, 2000
            Post implementation results show no major issues                           37
APPENDIX – Simplified Procurement Policy and Procedures                                39
                        EXECUTIVE SUMMARY
NCUA’s January 2000 notebook computer procurement and migration to
Windows 2000 Professional (Windows 2000) required significant agency
resources. NCUA senior management was interested in a review of the
notebook procurement and Windows 2000 migration risks, a nd the OIG viewed
this as an opportunity to present lessons learned and provide recommendations
for improvement in a recurring event.

The OIG’s review focused on the activities surrounding the 2000 notebook
procurement process and Windows 2000 migration decisions. The review
included inquiry of personnel, document review and analysis, and limited testing.

This review contained two major objectives. The first was to determine what
methodology was used to acquire new computers and Windows 2000 and
whether this methodology was followed; and the second objective was to
determine if the agency was exposed to unreasonable risks by implementing an
operating system before it was commercially available.

 NCUA COMPLIED WITH AGREED UPON METHODOLOGY FOR
 PURCHASING NOTEBOOK COMPUTERS AND WINDOWS 2000
The Board approved Simplified Procurement Procedures for the notebook
procurement. The OIG determined that the agency substantially complied with
Simplified Procurement Procedures, as well as NCUA policies and procedures
and NCUA’s unofficial Methodology for Acquisition of New Computers & Printers.
The agency purchased Windows 2000 off GSA schedule, which was deemed
compliant with NCUA policies and procedures. It is important to emphasize that
actual costs incurred for the notebooks and associated hardware were
approximately $2 million less than budgeted. The OIG identified many other
strengths including NCUA’s evaluation of equipment and vendors; and obtaining
quotes from several sources. In addition, the Information Systems Oversight
Committee (ISOC) was heavily involved in the notebook procurement process,
including approval and presentation to the Board. This report also notes some
areas where NCUA needs to strengthen planning and documentation.

   NCUA WAS NOT EXPOSED TO UNREASONABLE RISKS BY
          IMPLEMENTING WINDOWS 2000 EARLY

The OIG determined that the agency implemented an early copy of Windows
2000 that was obtained directly from Microsoft in December 1999 and was the
same release placed on store shelves in February 2000. There were risks with
implementing Windows 2000 prior to its general use in the industry. However,
those risks were not unreasonable and many steps were taken to mitigate some
of the risks.



                                                                                    i
Although the CIO is responsible for the agency’s architecture as defined in the
Clinger-Cohen Act of 1996 and the CIO’s position description, NCUA’s CIO
informed the ISOC and the Office of Executive Director (OED) of his impending
decision to migrate from Windows NT 4.0 to Windows 2000. The CIO identified
the benefits of Windows 2000 and took action to mitigate some of the risks of
early adoption. The upgrade to Windows 2000 was inevitable, so the CIO
weighed the options of adopting Windows 2000 with our new hardware,
upgraded office automation software and examination system versus waiting to a
later date. The OIG was informed that if Windows 2000 was not available to
meet our training schedule, our contingency plan was to continue with the NT
platform. There was insufficient evidence to support that NT was a viable
contingency plan. In addition, there was insufficient documentation to determine
the level of testing performed. However, the post implementation results indicate
that there were no significant issues with our migration to Windows 2000.
                                ………….
The OIG made 22 specific recommendations regarding lease analysis, budget
estimates, shopping GSA schedule, improvements in vendor listing, compressed
time frames, improved project planning and documentation.




                                                                                ii
                            INTRODUCTION
The National Credit Union Administration (NCUA) Office of Inspector General
(OIG) performed a review of the Compaq notebook computer (notebook)
procurement and Windows 2000 implementation for the following reasons:

   1. The notebook computer procurement required extensive agency monetary
      resources.
   2. The implementation of new agency computers, upgraded operating
      system, upgraded Office suite, and upgraded automated credit union
      examination program was a major effort requiring extensive agency
      resources.
   3. NCUA senior management informed the OIG of their interest in such a
      review.
   4. Technology is always evolving, and a review would offer the opportunity to
      present lessons learned and provide recommendations for improvement in
      a recurring event.


                             BACKGROUND
HISTORY

In 1987, NCUA first purchased personal computers for examiner staff. These
were Toshiba T3100 portable computers running DOS based programs and
ACES, the agency’s first generation automated examination program. In 1988,
the agency purchased IBM PS/2 desktop computers for staff working in an office
setting. The agency kept these respective computers in service for eight years.
These machines were upgraded at least once during this time frame.

In 1995, the agency purchased IBM ThinkPad 755C notebooks to replace the
Toshibas. The DOS operating system was also replaced by Microsoft Windows
3.11 and ACES was replaced by the agency’s second-generation automated
examination program, AIRES. The agency kept these respective computers in
service for five years. These computers were upgraded at least once during this
time frame. The agency purchased Hewlett-Packard desktop computers with
Windows NT 4.0 in 1996, and the remaining ThinkPads were upgraded to NT 4.0
by the end of 1997. The agency kept these machines in service for four years.

On June 8, 1999 the NCUA former Executive Director (ED) reestablished the
ISOC. The ISOC was charged with developing a charter consistent with an
Information Technology (IT) strategic planning process. On August 12, 1999, the
ISOC held their first meeting. New agency computers and commercial off the
shelf software (including the Windows 2000 operating system) were discussed at
this meeting.



                                                                               1
On October 6, 1999 the NCUA Board approved the leasing of notebooks for all
agency staff and participating state examiners. On December 17, 1999 the
agency initiated a purchase order in the amount of $6,544,224 for a three-year
lease of notebooks. In 2000, the agency implemented Compaq Armada M700
notebooks running Windows 2000 operating system, Office 2000, and loaded
with the agency’s third generation automated examination program, AIRES. For
more information representing the significant events surrounding the notebook
procurement and Windows 2000 migration you will find a detailed timeline in the
Scope and Methodology section.

PROCUREMENT POLICY AND PROCEDURES

According to the NCUA Rules and Regulations, Part 790, the following is a
description of the NCUA organization as it relates to IT procurements:

   •   The NCUA is managed by the NCUA Board;
   •   The Office of Executive Director (OED) translates Board policy into
       workable programs, delegates responsibility for these programs to
       appropriate staff members, and coordinates activities of senior executive
       staff. The ED is otherwise to be privy to all matters within senior executive
       staff’s responsibility;
   •   The Office of Administration (OA) is responsible for contract management,
       contracting and procurement;
   •   The Office of Chief Financial Officer (OCFO) is responsible for budgetary
       matters;
   •   The Office of Examina tion and Insurance (E&I) formulates standards and
       procedures for the examination and supervision of Federally Insured
       Credit Unions;
   •   The Office of General Counsel (OGC) has overall responsibility for all
       legal matters affecting NCUA;
   •   The Office of Training and Development (OTD) is responsible for the
       training and development of NCUA staff;
   •   The Office of Chief Information Officer (OCIO) manages and administers
       NCUA information resources; develops, maintains, operates and supports
       information systems, which directly support the agency’s mission.

NCUA procurement policies and procedures are provided via NCUA Instruction
1770.11 dated August 9, 1994. Instruction 1770.13, dated May 28, 1999
modifies and clarifies Instruction 1770.11 regarding procurement planni ng.
Below is a synopsis of NCUA’s procurement policies and procedures:

   •   The Director of the Office of Administration is the agency’s contracting
       officer. The OA Director signs all agency procurement documents,
       manages and implements the agency procurement program. The ED has
       overall responsibility for the agency’s procurement program;



                                                                                  2
   •   The agency will establish streamlined acquisition procedures and obtain
       goods and services necessary to accomplish the agency’s mission at fair
       and reasonable prices;
   •   The goal is to obtain the “best value”;
   •   GSA mandatory supply schedules will be the agency’s primary source for
       supplies;
   •   The agency is not subject to the Federal Acquisition Regulations (FAR)
       and Federal Information Resource Management Regulation (FIRMR);
   •   The agency will use competitive acquisition procedures to the maximum
       extent practical;
   •   Needs will be stated in functional terms and solicitation will clearly disclose
       evaluation factors other than price;
   •   Advanced acquisition planning means coordinating efforts of all personnel
       responsible for an acquisition through a comprehensive plan for fulfilling
       NCUA’s needs in a timely manner and at a reasonable cost;
   •   Acquisition planning formally begins with a purchase requisition of
       statement of work, but must begin far in advance of that in order to obtain
       proper funding approval, determine contract requirements obtain proper
       clearances and coordinate with other affected offices. Acquisition
       planning is required for procurements over $100,000 unless an
       emergency or written justification;
   •   A request for quotation (RFQ) means an informal bidding procedure for
       specifically described supplies, services or property;
   •   Brand name procurements require written justification and if over
       $100,000 require Executive Director approval;
   •   Special items approvals required for IT acquisitions over $100,000 are:
       Ethics Officer for long term contracts; OGC for legal sufficiency; OCIO for
       hardware or software; OTD for training; ISOC to ensure goods are
       appropriate for the agency’s strategic plan;
   •   The general procurement process is advance planning; purchase
       requisition preparation by office of primary interest (OPI), special items
       approval, OPI coordination, RFQ, contract officer preparation time,
       technical evaluation, negotiations, preparation of contract;
   •   The two major procurement methods used by NCUA are: Simplified
       Procurement Procedures and Formal Procedures.

Simplified Procurement Procedures (as defined by NCUA and referred to in the
FAR Part 13) are used for limited open market competition or existing
government contracts for non-complex procurements under $100,000 or for
Commercial Off The Shelf (COTS) supplies which cost less than $5 million.
Procurement planning is still required for procurements over $100,000.

Simplified Procurement Procedures as described in the FAR, Part 13 were
established as a test program to reduce administrative cost, improve
opportunities for small and disadvantaged vendors, promote economy and
efficiency in contracting and avoid unnecessary burdens on agencies and


                                                                                    3
contractors. Procurements from $2,500 to $100,000 are set aside for small
business concerns. Simplified procurement procedures are not to be used for
procurements over $5 million. There are no specific mandatory procedures
described in order to implement simplified procurement procedures. Contracting
officers will promote competition to the maximum extent possible, establish
deadlines for submission of responses to solicitations that afford suppliers a
reasonable opportunity to respond, consider all timely quotations, inspect items
received, include related items such as small hardware items in one solicitation,
evaluate quotes impartially and on the basis established in the solicitation.
Contracting officers are given broad discretion in evaluation procedures, formal
evaluation plans, establishing competitive ranges, conducting vendor
discussions, and scoring quotes. Documentation is to be kept to a minimum.

According to the General Services Administration (GSA), GSA Federal supply
schedule items are considered to be fair and reasonable. Best value is
determined as a trade-off between cost and technical requirements. Using GSA
Schedule is considered to be full competition.

BUDGET IMPACT

During the 1999 Budget cycle, a request for notebooks for all agency staff was
denied for several reasons, including Y2K considerations. On February 23,
1999, as a result of the denied funding, OCIO put in a special request for funding
in the amount of $225,000 for new machines to test AIRES.

On October 6, 1999, the Board approved $9.38 million for a 36-month lease for
1570 portable computers, 100 desktop computers, 400 docking stations, and
1570 printers/scanners via a Board Action Memorandum (BAM).

On November 18, 1999, the Board approved the 2000/2001 budget, which
included new notebooks, printer/scanners, docking stations as previously
approved on October 6, 1999, with a total estimated cost of $9.38 million and an
annual cost of $2,612,500. Additional costs directly and indirectly related to the
compute r upgrade were:

   •   Regional conferences and AIRES training at a cost of $1,186,000;
   •   Purchase of 80 computer monitors at a cost of $40,000;
   •   Contract staff for computer configuration distribution at a cost of $100,000;
   •   IBM notebook maintenance of $125,000;
   •   Microsoft licenses with an estimated cost of $600,000 to be depreciated
       over two years with an annual cost of $300,000.

On November 16, 2000, the Board approved the budget for 2001/2002, which
included the annual lease costs for the notebooks, printer/scanners and docking
stations in the amount of $1,843,547. The 2001/2002 budget also included an
annual expense of $380,000 for Microsoft licenses.


                                                                                     4
                                OBJECTIVES
The objectives of the Office of Inspector General’s review were to:

   •   Determine what methodology was used to acquire new computers and
       Windows 2000 and whether this methodology was followed; and
   •   Determine if the agency was exposed to unreasonable risks by
       implementing a new operating system platform before it was commercially
       available.


                   SCOPE AND METHODOLOGY
Our review focused on the activities surrounding the 2000 notebook procurement
process and Windows 2000 migration decisions. Our review included inquiry of
personnel, document review and analysis, and limited testing.

Below is a listing of some of the review procedures we performed:

   •   Prepared a timeline of significant related events from 1998 through 2000;
   •   Interviewed over 30 people, including NCUA board members, Regional
       Directors (RD), Associate Regional Directors (ARD), managers, ISOC,
       staff, Microsoft, GSA, and vendors;
   •   Reviewed management reports;
   •   Reviewed documents provided by ISOC Chair and ISOC Members;
   •   Reviewed project plans;
   •   Reviewed status reports;
   •   Reviewed AIRES test database;
   •   Reviewed procurement files;
   •   Reviewed BAM, October 6, 1999;
   •   Reviewed agency procurement policy and procedures;
   •   Reviewed FAR and GSA schedule guidelines;
   •   Reviewed RFQ, Best and Final Offer (BAFO) and related vendor
       proposals;
   •   Reviewed contracts;
   •   Reviewed purchase orders;
   •   Reviewed industry articles and literature;
   •   Reviewed Microsoft license types;
   •   Reviewed budgets;
   •   Reviewed OTD documentation;
   •   Reviewed project post mortems;
   •   Reviewed agency inventory records; and
   •   Performed limited testing of machine specifications.




                                                                                   5
This review was a challenge because we had to go back in time to a point where
decisions were made without the benefit of today’s hindsight. We used as much
information that was available at the time of the decision. Due to limited
documentation, we had to place greater reliance upon testimonial evidence to
form our conclusions. In some instances, different opinions, lack of memory, or
inconsistent responses complicated our analysis and conclusions.

We performed this review from September 2000 through April 2001.

The Office of Inspector General conducted this review in compliance with
generally accepted government auditing standards.




                                                                              6
 MAJOR EVENTS SURROUNDING THE NOTEBOOK PROCUREMENT AND
                 WINDOWS 2000 MIGRATION

11/98:                  Notebook unapproved for 1999 budget
3/22/99:                Procure IBM test machines
6/99                    OCIO became aware that Windows 2000 could be an option for new
                        hardware in 2000
8/2/99                  ADT begins Aires 2000/Windows 2000 beta/Office 2000 testing
8/5/99                  OTIS Update reflected Windows 2000/AIRES testing
Late Aug/Early Sep      OCIO begins testing Windows 2000 beta
1999
Sep 1999                Mgmt Report noted testing of Windows 2000 beta with AIRES for
                        possible use in next generation notebook
9/3/99                  Notebook specifications approved
10/1/99:                Procure four differing test notebooks
10/6/99:                Board authorized notebook procurement/leasing
10/6/99:                OTD issues RFP for notebook/AIRES training
10/29/99                Hotel proposals due
11/8/99:                Executive Director approves training hotel/site selection
11/9/99:                Notebook test machine evaluation
11/10/99                TDG notebook evaluation results provided to ISOC
11/16/99:               Training hotel contract signed
11/16/99:               Notebook RFQ issued
11/18/99:               2000 budget approved, including lease for notebooks
11/22/99:               First response date for notebook RFQ
11/24/99:               Notebook RFQ response date extension
Late Nov/Early Dec 99   Firm decision to go with Windows 2000
Dec 1999                Windows 2000 more stable than NT
12/1/99:                Began discussions with final three competing vendors for notebooks
12/6/99:                BAFO proposal issued
12/7/99:                BAFO responses due
12/7/99:                Purchase order issued for training hotel
12/10/99                All applications must be modified and ready for NT 4/Office 2000
12/13/99:               Technical capability evaluation of final three notebook vendors
12/15/99                Windows 2000 RTM Available
12/16/99:               Notebook procurement legal and ethical reviews performed
12/16/99:               Executive Director approval for notebook procurement
12/17/99:               Purchase order issued for notebooks
12/24/99                NCUA received Windows 2000 RTM
Jan 00:                 Notebook receipt begins
Jan 00                  Compaq notebooks, AIRES, Windows 2000 (final platform) tested
1/18/00:                Purchase order issued for leasing of printers/scanners
Jan/Feb 00              Notebook distribution begins
2/7/00-2/18             Final user testing with lock down
2/17/00                 Windows 2000 available on store shelves
2/20/00:                Train the trainers session held
2/23/00:                Purchase order issued for desktop computers
3/16/00                 Purchase order issued for Microsoft Licenses
3/16/00:                Notebook and AIRES training begins
6/9/00:                 Notebook and AIRES training ends
6/19/00                 First Regional Conference – San Antonio




                                                                                             7
           Section 1: NOTEBOOK PROCUREMENT
           OBSERVATIONS & RECOMMENDATIONS


 NCUA COMPLIED WITH AGREED UPON METHODOLOGY FOR
 PURCHASING NOTEBOOK COMPUTERS AND WINDOWS 2000
Our first objective was to determine what methodology was used to acquire new
computers and Windows 2000 and whether this methodology was followed. The
Board approved Simplified Procurement Procedures for the notebook
procurement. We determined that the agency substantially complied with
Simplified Procurement Procedures, as well as NCUA policies and procedures
and NCUA’s unofficial Methodology for Acquisition of New Computers & Printers.
The agency purchased Windows 2000 off GSA schedule, which was deemed
compliant with NCUA policies and procedures. See Section II for a detailed
discussion of NCUA’s migration to Windows 2000. It is important to emphasize
that actual costs incurred for the notebooks and associated hardware were
approximately $2 million less than budgeted. We identified many other strengths
including NCUA’s evaluation of equipment and vendors.

We also noted some areas where NCUA needs to strengthen planning and
documentation. We made specific recommendations regarding lease analysis,
budget estimates, shopping schedule, improvements in vendor listing, and
compressed time frame.



 NCUA Complied with Simplified
 Procurement Procedures in the
 procurement of notebook computers

AUTHORIZATION of PROCUREMENT METHODOLOGY

On October 6, 1999 the NCUA Board approved the procurement of Tier 1
notebooks for all agency staff to be leased over a three-year time frame. The
Board also approved the use of simplified acquisition procedures for this project.
In addition, the Board waived the $5 million threshold ceiling for simplified
procurement procedures, per the FAR.

According to the October 6, 1999 Board Action Memorandum approved by the
Board, the justification for use of simplified procurement procedures stated:

   •   There is no development or customization involved in this procurement
       since the agency was acquiring commercial, off the shelf products on a
       fixed price basis



                                                                                 8
   •   The agency planned to place an order against an existing government
       contract, thus offering no risk for protest
   •   The agency will compare several different contracts to determine best
       value and offer an element of competition
   •   If the agency did not approve these procedures, the agency may not be
       able to meet the projected schedule for implementation

The agency procured commercial off the shelf
notebooks on a fixed priced basis. However,
there was some customization to the standard
lease entered into via the SEWP evidenced by
an NCUA initiated lease addendum for OEM
memory, custom inventory tagging, NCUA’s
delivery schedule, on-site next -day-turnaround
warranty, and return of leased equipment.

The agency placed an order against an existing
government contract via a NASA SEWP contract. However, the request for
quotes did not list this as a requirement. And, while two vendors submitted open
market quotes, neither of these vendors was selected for contract award.

The agency compared several vendors’ government contract proposals via the
RFQ process. In addition, the agency asked for Best and Final Offers from the
three lo west quotes per the RFQ process.

The agency proposed to establish a fixed deadline for notebook distribution of
June 2000.

In addition to following simplified procurement procedures, additional
procurement policy and procedures were listed as part of the October 6, 1999
BAM and accompanying package:

   •   ISOC reviewed types of hardware available on the market;
   •   Methods of paying for machines;
   •   Maintenance and support options;
   •   Expectations for length of service for new hardware; and
   •   Options for delivering and training staff on a new computing platform.
   •   Machines will be distributed to staff prior to June 2000.
   •   AIRES test group will test machines.
   •   Hotel contracts (for delivery and training) cannot be signed until we are
       certain about computer and software delivery.

The ISOC reviewed the results of testing for four types of notebooks on the
market on November 9, 1999. The ISOC reviewed lease vs. purchase options.
We were unable to determine conclusively what maintenance and support
options were reviewed. A life cycle analysis was performed by a third party and


                                                                                   9
reviewed by the ISOC. Options for delivery and training of staff were prepared
by OTD and communicated to the ISOC. An AIRES test group tested four sample
test machines on November 9, 1999 and communicated its results to the ISOC.
The hotel contract for notebook and AIRES training was signed on November 16,
1999. On that same date, the first Request for Quotes for the notebooks was
mailed. However, a decision of which operating system to install had not been
finalized, and the agency automated examination program to be installed on the
new notebooks was still undergoing testing.

SIMPLIFIED PROCUREMENT PROCEDURES

Simplified Procurement Procedures impose a ceiling for the acquisition of
supplies with an aggregate amount not exceeding $5 million. In addition,
simplified procurement policy does not apply if the agency can meet its
procurement requirements using required sources of supply and Federal Supply
Schedule contracts.

The NCUA Board waived the simplified procurement ceiling of $5 million via the
October 6, 1999 BAM, due to the justification of time and scheduling constraints
for notebook and AIRES training. If the agency had to cancel training, which was
scheduled to begin in March 2000 for field staff, the cancellation penalty could
have been as high as $495,698 (per the November 16, 1999 signed contract).

The purchase orders for the BAM approved desktop computers and
printers/scanners did not use simplified procurement procedures but did use
Federal Supply Schedule Contracts (the same lease SEWP contract as the
notebook procurement). Our review of these two purchase order files found no
evidence that other Federal Supply Schedule contracts were reviewed for a lower
cost alternative. While this is not a requirement, searching the supply schedule
can sometimes produce a lower cost. In addition, we did not review and could
not ascertain, how the brand name product was determined for the
printer/scanners other than it is OCIO policy to procure same brand equipment
and this brand was the previous brand printer used by field staff.

Basically, Simplified Procurement Procedures allow the contracting officer broad
discretion in fashioning suitable evaluation procedures and encourage a
minimum of documentation. Nonetheless, the contracting officer must determine
that the proposed price is fair and reasonable. See Appendix A for a more
detailed review of Simplified Procurement Policy and Procedures.

The NCUA Office of General Counsel opined to us verbally that the agency
complied with Simplified Procurement Procedures for the notebook procurement.
Additionally, the NCUA Ethics Officer found no improprieties and the OGC found
the procurement to be legally sufficient.




                                                                             10
We concur with OGC’s conclusions and offer the following observations on our
review of the notebook procurement.

The agency established an evaluation plan whereby technical and pricing issues
were considered. In addition, a competitive range was used, vendor discussions
were held, a nd vendor quotations were scored.

The agency determined that the awarded contract was fair and reasonable by
using an existing SEWP government contract. The procurement file
demonstrated that technical and cost considerations were used in awarding the
contract, showed the number of offers received and demonstrated the basis of
the award decision.

There was no evidence to indicate that the agency solicited quotations on the
basis of personal preference or restricted solicitations to suppliers of well-known
and widely distributed makes or brands.

The agency promoted competition by issuing an RFQ and BAFO. Through this
process, the agency used an effective innovative process and obtained a
quantity discount. Transportation charges were included in the solicitation and
quotations appeared to be evaluated in an impartial manner. The equipment was
inspected upon receipt. We corroborated this via an independent analysis of the
computer components received and verified the receipt of quantity of items
ordered. We found evidence that no reasonable offer was rejected.

The original RFQ and subsequent amendments did not notify the vendors that
the award was being evaluated on technical and price considerations. However
the BAFO did notify the final three bidding vendors that the agency had a slight
preference (technical) for the Compaqs over the IBMs solicited, but that this
factor was less important than price. The RFQ was sent to twelve potential
vendors and the BAFO was sent to the final three (based on competitive range)
vendors. Per agency procurement files, the award was to be based upon 75%
technical and 25% price. The agency established an original deadline for
submission for the RFQ of six days. This deadline was extended two days,
apparently at the request of one vendor. The BAFO response time was one day.
According to agency senior staff, this time frame was considered reasonable. All
vendor quotations received by the established due dates were considered.
However, one RFQ proposal received five days after the stated response time
was still considered. In addition, two of the three BAFO responses were received
one day late and both were considered. In fact, the contract was awarded to one
of these vendors who submitted a late proposal.

The agency did not include related computer items in the RFQ/BAFO solicitation.
Desktop computers and printer/scanners for staff were approved for leasing
along with the notebooks via the October 6, 1999 BAM. These items were
procured later as an attachment to the awarded vendor lease. Since this leasing



                                                                                 11
contract was an already competed SEWP contract, the agency was in
compliance with procurement policy and procedures.

The purchase order issued for the notebooks was on a fixed price basis,
specified the q uantity, and provided delivery dates. We also noted that NCUA
inspected the goods upon acceptance.

OTHER PROCUREMENT PROCEDURES

Attached, as an addendum to the October 6, 1999 BAM was a document titled,
“Methodology for Acquisition of New Computers & Printers at NCUA”. This
document describes eleven steps that primarily relate to the strategic decision
making process, but also apply to the procurement planning process. These
eleven steps are as follows:

   1. Analysis of Needs
   2. ISOC Approval of Initiative
   3. Market Survey of Product Offerings
   4. Budget Approval
   5. Testing/Evaluation of Top Tier Machines
   6. Third Party Technical Review
   7. Procurement Process
   8. Analysis of Alternative Acquisition Strategies
   9. Pre-procurement Review by ISOC
   10. Implementation and Distribution
   11. Post-implementation Review

To the best of our knowledge, the above referenced “Methodology for Acquisition
of New Computers & Printers at NCUA” was never officially adopted as official IT
procurement policy. In addition, it is unclear if this was the procurement
methodology, which the NCUA Board approved as a description of the specific
simplified procurement procedures to be followed. However, it appears that
NCUA substantially complied with all of the eleven steps above with the following
minor exceptions:

   •   There is no written documentation that a Third Party Technical Review
       was performed. However, senior management indicated that this review
       was performed via a telephone conversation with an independent IT
       consulting firm. Subsequent to this review, OCIO management provided
       us with handwritten notes from the third party review.
   •   Implementation costs and additional maintenance costs (additional
       warranty coverage) were not presented to the NCUA Board at the October
       6, 1999 BAM meeting. However, implementation costs were provided
       during the 2000 budget process, which was approved in November 1999.
       In addition, the option of having additional warranty coverage may not
       have been known at the time of the October 6 th BAM meeting.



                                                                                12
Other NCUA prescribed procurement policies and procedures, per NCUA
Instructions 1770.11 and 1770.13:

   •   Acquisition planning required for procurements over $100,000.
   •   Brand name procurements require written justification and if over
       $100,000 require Executive Director approval.
   •   IT acquisitions over $100,000 require Ethics officer approval for long term
       contracts; OGC approval for legal sufficiency, OCIO approval, OTD
       approval for training, and ISOC approval to ensure appropriateness for
       agency’s strategic plan.

Acquisition planning was performed, although it appeared to begin too late in the
process and was hampered by self imposed time constraints (scheduled
training). The former Executive Director approved the notebook procurement,
approved a brand name waiver and approved a Commerce Business Daily
advertising requirement waiver. The agency Ethics officer, OGC, OCIO, OTD
and ISOC all approved the acquisition.

Recommendation:
  1. Clearly define agency procurement policy and procedures. We suggest
     the NCUA procurement instruction(s) be merged with simplified
     procurement procedures that are applicable to NCUA. If the IT acquisition
     methodology is intended for all IT acquisitions, it should be incorporated
     into NCUA procurement policy and procedures.

       OA and OED agreed with this recommendation. OA has been working
       with OGC rewriting NCUA Procurement Policies and Procedures manual.
       The draft manual will be distributed for comments, and OA anticipates
       finalizing the manual by October 31, 2001.



 NCUA Complied with Proper                      In March 2000, the agency
 Procurement Policy in the                      purchased an enterprise
 Procurement of the Windows 2000                agreement for Microsoft licenses
 Operating System                               (including Windows 2000, Office
                                                2000, etc.) from a GSA schedule
vendor. By using a GSA schedule vendor for this procurement, the agency was
in compliance with procurement policies and procedures of obtaining a fair and
reasonable price and in compliance of obtaining full and open competition.
Although NCUA was in compliance by purchasing licenses from the GSA
schedule, we encourage the agency to shop the schedule for future purchases
and support their decision to select a particular vendor.




                                                                                13
 Lease versus Purchase Analysis can          Per the BAM of October 6, 1999,
 be Improved                                 the budget impact for a 36-month
                                             lease of equipment was:

             1570 portable computers @$4700       $7,379,000
             1570 printers/scanners @$400            628,000
             400 docking stations @$500              200,000
             100 desktop computers @$2300            230,000
                   TOTAL                          $8,437,000
                   Interest                          941,362
                   TOTAL (operating and Ins fund) $9,378,362

Lease versus purchase options were considered during the BAM presentation.
Primary justifications were to even out cash flows and establish a three-year
replacement cycle for notebooks. The dollar difference calculated was less than
$100,000 between a 36-month lease and a cash purchase of the notebooks.
However, the BAM presented attachment did not provide for the interest rate
assumptions used for the leasing imputed interest rate or the interest rate used
for the time value of money. In addition, financing a purchase was not
considered as an option during the BAM presentation. Information concerning
the interest rate assumptions was not contained in the final BAM; however, it was
documented and discussed with the ISOC and NCUA Board, according to OCFO
and OED.

Per OED, since it was determined that an outright purchase of the laptops was
not in the best interests of NCUA, no lengthy discussion of borrowing funds from
a third party to purchase the laptops was considered.

We also determined that the estimated cost per notebook of $4,700 was
reasonable, based upon the prices paid for four test machines by the agency.

Recommendation:
  2. Whenever leasing versus purchasing options are reviewed, all options
     (such as financing a purchase) should be considered. In addition, leasing
     versus purchase options should be considered at the point of solicitation
     of actual quotations in order to compare actual purchase versus actual
     leasing costs.

      OED agreed with this recommendation.


 Actual Costs were below Budget               The October 6, 1999 BAM
                                              provided an estimated budget
impact of $9,378,362 over a three-year period. The agency spent substantially
less for the listed equipment, than was budgeted. The table below shows the




                                                                                14
estimated equipment costs per the BAM (including interest assumed) and actual
costs incurred.

ITEM                           BUDGETED PER BAM                  ACTUAL COSTS
Notebooks                              $8,202,315                    $6,367,920
Docking Stations                          222,315                       130,176
Portable Printers                         698,069                       554,268
Desktop Computers                         255,663                       187,980
Laser Jet Printers                                                       73,662
Mice                                                                     13,248
Keyboards                                                                32,880
Monitors                                                                 41,442
TOTAL                                      $9,378,362                $7,401,576

However, only the notebooks, docking stations, mice and keyboards were
solicited for competition via the RFQ process with a purchase order being issued
on December 17, 1999. These actual costs equated to $6,544,224 of the
$7,401,576.

The portable printers and laser jet printers were not included in the RFQ
solicitation. They were procured by attaching to the same awarded government
contract as the notebooks with a purchase order issued on January 18, 2000 in
the amount of $627,930. We researched current costs for like printer scanners
and discovered among four Federal Supply Schedule vendors that prices varied
from $195 to $288 per machine. The agency only procured 1,300 portable
printers versus the 1,570 that were budgeted after agency needs were
reevaluated. In lieu of 270 portable printers, NCUA purchased 134 laser jets.

The desktop computers and monitors also were not solicited via the RFQ
process with the notebooks. They too, were procured by attaching to the
awarded SEWP contract by issuing a purchase order on February 23, 2000 in
the amount of $229,422. Monitors were budgeted in the 2000 budget for a cash
purchase of $40,000 for 80 monitors. The agency actually procured 23 monitors
with a 36-month lease cost of $41,442. Although these acquisitions were in
compliance with procurement policy and procedures, the agency may have been
able to get further price reductions via the RFQ process as was done with the
notebooks.

The following are additional items listed in the 2000 Capital Acquisition Budget,
which were not present in the BAM.

      Printer, copier, fax scanner       $ 7,302        annual lease exp
      Contract staff configuration        100,000       cash exp, depr 3 yrs
      80 computer monitors @ $500          40,000       cash exp, depr 3 yrs




                                                                                    15
The 2000 budget included additional leased printers/copier/fax (number of items
were not listed in the budget), contract staff configuration for computer
implementation and monitors, which were not presented to the Board at the
October 6, 1999 BAM, in the annual amount of $147,302. This equates to a
three-year total cost of $161,906.

Recommendations:
  3. Whenever a procurement is solicited for bid, all related goods or services
     should be part of that solicitation to take advantage of solicitation price
     discounts.

       OED and OA agreed with this recommendation. The contracting officer
       will ensure that this is done in future acquisitions of this nature.

   4. Although not required, we suggest that whenever the agency procures
      goods or services via federal government schedule or contract, that at
      least three federal government schedule/contract vendors be reviewed for
      “best value”.

       OED and OA agreed with this recommendation. According to OA, this will
       be incorporated in the revised procurement manual.


 2000 Budget did not Accurately                OCIO’s 2000 budget submission
 Reflect the Cost of Microsoft Licenses        did not accurately reflect the total
                                               costs of MS licenses. OCIO
presented $600,000 as a one -time fee for MS license renewal in the FY 2000
budget. OCIO incorrectly presented their 2000 budget for these licenses and it
was subsequently corrected in 2001. When we discussed this issue with OCIO
managers, they did not recall the specific events around the 2000 budget item,
nor could they provide support for those estimates. In the fiscal year 2000
capitalized acquisitions budget, OCIO presented software licenses for 1000
employees as a one -time fee of $600,000 cash outlay to be depreciated over 2
years, with an annual cost of $300,000. There was no budget item in the
insurance fund for these licenses. In the FY 2001 budget, OCIO presented
$380,000 as an annual expense for licenses.

In March 2000, the agency purchased an enterprise agreement from a GSA
schedule vendor. The purchase order presented was for 1500 licenses with a
total cost of $379,680. The purchase order did not disclose that the enterprise
agreement was a three-year commitment with equal annual payments. Actual
expenses were $379,680 per year, with a three-year commitment totaling
$1,139,040. Since the licenses were purchased off GSA schedule this was
considered fair, reasonable and competed.




                                                                                  16
Recommendation:
  5. NCUA Offices should fully document all items presented in their budget
     proposals and maintain this documentation for future reference.

       OED and OCIO agreed with this recommendation. According to OCIO,
       after submission of OCIO’s budget request, they identified a more
       beneficial licensing strategy for the agency. Since it was within the overall
       budget for the project, and in consultation with OCFO, OCIO
       recommended purchase of a three-year license to run concurrent with the
       notebook lease. This license provided more benefits to the agency at a
       lower overall cost. OCIO will provide better documentation during the next
       licensing cycle.


 Although Equipment Specifications             The October 6, 1999 BAM had as
 Evolved during the Procurement                an attachment a September 3,
 Process, they were Reasonable                 1999 document providing minimum
                                               computer specifications. We
believe that these specifications appear thorough and reasonable for staff usage
over a three-year term. However, it is somewhat unclear how these minimum
specifications were derived.

In interviews with OCIO staff, they indicated they were consulted on the
specification requirements. It was unclear if this was a minimum specification list
or a “wish list”. There is no documented evidence that an analysis was performed
to determine minimum equipment requirements. However, the CIO told us he
developed the specifications based on his experience and knowledge.

One of the requirements was to select Tier 1 equipment. Tier 1 is referred to as
high quality equipment. Interviews with OCIO staff disclosed varying definitions
of Tier 1 manufacturers. Although not all Tier 1 machines were selected for
testing, the four machines selected by OCIO were considered Tier 1.

The RFQ was amended at least three times. The types of changes to
specifications included such things as notebook weight, hard drive size, type of
diskette drive, evolving definition of “identical components”, and type of warranty.
Because two months elapsed between the BAM and the RFQ, it is possible that
some changes to specifications resulted from more current research of
equipment needs, and/or discussions on availability of equipment, and options
with vendors. While the changes in the specifications appear reasonable, there
is no documentation in the procurement file to support these changes.


                                               The agency procured four different
 Technical Evaluation was Sound                models of test machines. A user
                                               test group evaluated each of these



                                                                                  17
four test machines based on pre-established criteria developed by OCIO. The
machines were tested using test scripts and scoring was performed. The scores
were combined and ratings provided on each machine. These results were
provided to the ISOC. Two makes were close in scoring but clearly ahead of
other two makes. It was these two makes, which were solicited via the RFQ
process and used as the basis for the solicitations technical evaluation. This
process was well documented and provided an excellent source for procurement
technical evaluation scoring.

During the solicitation process, three vendors were selected to compete via the
BAFO process. Prior to that process, OCIO staff visited the sites of all three final
vendors to determine, their capabilities to meet o ur needs. A written report of
these observations was prepared and presented to the ISOC. It was determined
that all three vendors could meet our requirements but there were distinct
differences of that ability described in the report. We believe that this evaluation
was an excellent idea and presented well. However, we were unable to
ascertain, how it was used in the evaluation process of vendors.

Agency staff met with the final three vendors to gain further clarification of the
requirements of the procurement and capabilities of the vendors. NCUA staff in
attendance, included OGC, ISOC, OA, OCFO, and OCIO. The use of a
consistent list of questions and topics for all three vendors was an excellent way
to conduct the discussions. Various NCUA attendees were asked for comments
or additional questions on December 1, 1999 for the meetings held that day and
the next. Questions from NCUA staff regarded mostly leasing terms. The
prepared list of topics discussed were:

   •   How vendors will meet the requirement of identical machines;
   •   Guarantee of delivery schedule with loading of custom NCUA software;
   •   Experience of vendor;
   •   Explain how maintenance support will work, what is available, cost, and
       non-performing machines;
   •   Windows 2000 license rebate.

Recommendation:
  6. When vendor capability is a factor in selection, clearly determine how the
     weight of the equipment evaluation and vendor capability evaluation will
     be scored for the technical evaluation portion of the award determination.

       OA agreed with this recommendation. The contracting officer will ensure
       that this is documented in future acquisitions of this nature.


 Vendor Solicitation Selection                 The agency obtained a sufficient
 Complied with Policies and                    number of vendors to solicit and
 Procedures, but Solicited Vendor List         the process was in compliance with
 was ad hoc

                                                                                 18
procurement policy and procedures. However, the selection of vendors to solicit
was ad hoc. OA and OCIO staff were asked to provide vendor names to solicit.
In response to this request, 12 vendors were identified for the RFQ process.

According to the October 6, 1999 BAM it was stated tha t NCUA was to procure
using Federal supply schedule or existing government contracts for the notebook
procurement. At least two vendors submitted open market quotes. Although,
there is a GSA schedule search for leasing companies in the procurement file, it
appears that this list was not used. In addition, this GSA search list was
generated on November 16, 1999, the day of the apparent first RFQ release.
There is no evidence that the agency performed a search for “equipment”
vendors via a GSA schedule or existing government contract.

Recommendation:
  7. Whenever the agency plans to procure from a federal schedule or federal
     contract, appropriate vendor listings should be obtained from a search of
     GSA schedule and contract vendors.

      OED and OA agreed with this recommendation. The contracting officer
      will ensure that this is documented in plans for acquisitions of this nature
      in the future.


                                                While there is nothing wrong with
 Multiple Amendments to RFQ were
                                                having multiple amendments in the
 Issued
                                                RFQ process, this could be a
reflection of the compressed time frame that the agency was operating within to
meet its self-imposed deadline for training. Multiple amendments also increase
the risk of providing inconsistent information to all eligible vendors.

The agency obtained a listing of twe lve vendors to solicit for quotes on both IBM
and Compaq notebooks. The RFQ asked for business classification (small,
disadvantaged, etc,) and type of quote (open market, GSA schedule, etc.).




The first RFQ noted in the file was dated November 16, 1999. However there is
no evidence to indicate that this version was sent to any vendors. The next RFQ
in the file was dated November 17, 1999 with response date of November 22,


                                                                                 19
1999. The file indicates it was sent to ten vendors. A second RFQ dated
November 17, 1999 was in the file with a response date of November 22, 1999.
The file indicates that this version was sent to nine vendors. A third RFQ dated
November 17, 1999 with a response date of November 24, 1999 (apparently to
meet the request of one vendor) was sent to twelve vendors, per the
procurement file documentation. One response was received on November 29,
1999. This vendor was selected as one of the final three vendors to solicit for
further competition via the BAFO process.

In one amendment, the OCIO sent RFQ changes to OA on November 19, 1999.
Quotes on leasing terms came to NCUA in various forms: per machine, monthly
payments, quarterly payments, and leasing factor to use on purchase price. Two
vendors had noted in their quotations, “still working on operating system rebate”.
We found no evidence in the procurement file or upon inquiry as to whether
NCUA received or did not receive a rebate. However, it does appear that the
final three vendors selected for BAFO solicitation were reasonable.

The procurement file contained three Excel spreadsheets listing vendor
quotations. We were unsure of the use of each spreadsheet. However it is
apparent that they were used to compare vendor quotations to arrive at the final
three vendors for the BAFO solicitation. Each spreadsheet contained some price
quote differences. One spreadsheet had eight vendors listed. We were unable
to trace five of the quotes listed to vendor documentation in the file for the
Compaq PIII. The second spreadsheet also had eight vendors listed, yet we
were unable to trace six vendor quotes to vendor documentation in the file for the
Compaq PIII. The third spreadsheet listed seven vendor quotations and four of
these quotes could not be traced to the vendor documentation i n the PO file for
the Compaq PIII.

Vendor responses were inconsistent in format and response to requirements. As
stated earlier, two vendors did not have government pricing but had open market
quotations, and two vendors had delivery terms as FOB origin, while the
remaining vendors quoted via FOB destination.

Recommendation:
  8. NCUA should document support for modifications to RFQs and maintain
     accurate records identifying dates and destinations of all procurement
     correspondence to ensure that all vendors receive the same information.

      OED and OA agreed with this recommendation. According to OA, the
      tight time frames cause haste, which resulted in incomplete
      documentation. However the ISOC should and the contracting officer will
      ensure adequate time frames are established for future acquisitions of this
      nature.




                                                                               20
                                                The BAFO was sent to the final
 One Day Response Time for BAFO                 three vendors on December 6,
                                                1999 with a response date of
December 7, 1999. However, it should be noted that vendor discussions were
held on December 1 st and 2nd. Two responses to the BAFO were received on
December 8, 1999, with one of those vendors being awarded the contract. Two
of three vendors had a “BAFO” letter in file with no documentation in the file that
third vendor was sent a BAFO letter. The lowest bidder was awarded the
contract.

Of the three BAFO quotes received, the awarded vendor’s quote went down
slightly, the other two increased significantly. Per one vendor, they were unsure
of the cause, other than stating that some specifications changed. This same
vendor also stated that RFQ response time frame was tight but reasonable.

Recommendation:
  9. If an extension is granted on response time, all vendors should be notified
     of this extension.

       OED and OA agreed with this recommendation. The contracting officer
       will ensure that this is done in future acquisitions of this nature.


 Internal Controls over the Purchase            An OCIO staff person who, by
 Requisition Process were Weak                  coincidence, offered three vendor
                                                names that ended up being the
final three vendors in the BAFO competition prepared the purchase requisition for
the notebooks. In addition, the “ship to” instructions on the purchase order
provided this staff person’s name as the person to receive the goods
(notebooks).

RECOMMENDATION:
  10. We recommend that NCUA ensure appropriate segregation of duties is
      maintained during major procurements.

       OED, OA, and OCIO agreed with this recommendation. According to OA
       and OCIO, the subject employee did not have any involvement in
       establishing the competitive range or making vendor selection.

 Acquisition Planning Hampered by             Although there was significant
 Time Constraints                             planning involved in the
                                              procurement of the notebooks, we
believe that it was hampered by training schedule time constraints.

Originally, the OCIO proposed to procure notebooks in 1999, via the 1999 budget
process. Partial justification fo r the disapproval of this request was Y2K issues.



                                                                                 21
However, the OCIO did obtain permission in March of 1999, to obtain computers
for the testing of the ARIES program and pending notebook replacement
sometime in the future.

Per the October 6, 1999 BAM, jus tification was provided to support the use of
simplified procurement procedures and the waiver of the $5 million ceiling of “the
agency may not be able to meet the projected schedule for implementation”.
Attached to the BAM, was an OTD memo discussing training issues and the
need to procure training facilities as soon as possible. On November 16, 1999
(the date of the first notebook RFQ), the OTD signed a contract for training
facilities. Training for field staff was to begin in March 2000. This in effect
imposed a deadline for the notebook and related computer training. If the
training had to be canceled, it could have resulted in as much as a $495,000
penalty.

During the procurement process there were other indications of compressed
planning, due primarily to the self imposed training time frame. For instance, not
all of the BAM approved equipment was listed in the RFQ solicitation process;
contract specifications evolved during the process (although these specification
changes appeared minor); vendor quotations came in various forms (primarily
leasing terms); there was at least one error noted on one RFQ that was sent to
vendors (requirement of 300 docking stations versus 400 docking stations – at
least one vendor responded with a 300 docking station quote); RFQ and BAFO
response times were relatively short; OGC’s review was late in the process; the
request for name brand and CBD advertising waivers were obtained late in the
process; and the procurement file was not well organized.

                                                The current lease expires on April
 Considerations for Future                      30, 2003. This next notebook
 Replacement of Notebooks
                                                procurement will differ from the
                                                previous one. Unlike the previous
procurement, the next procurement will require all equipment to be returned as of
a particular date or risk paying two concurrent lease payments. NCUA must
return the equipment to the NCUA central office by April 30, 2003 for lessor pick
up. If equipment is returned late, the agency will be liable to make prorated lease
payments.

Moving from the current lease into another lease in 2003 will require extensive
upfront planning to minimize costs and confusion. NCUA should start planning
for the next lease in sufficient time to address all future requirements and risks.
We have listed below a preliminary list of some of the considerations that NCUA
needs to consider in planning for its next lease:
    • How is the agency going to remove computer hard drives and store data
        and/or software?
    • How is the agency going to transfer such information to new procured
        equipment?



                                                                                 22
   •   How is the agency going to arrange erasing of leased hard drives?
   •   How will the agency arrange the logistics of returning all leased equipment
       (notebooks, docking stations, printers, desktops) to the central office,
       procure new equipment, and keep examiners working?
   •   Does the agency have adequate storage capacity at the central office for
       all returned equipment?
   •   How will the agency handle removing leased equipment from the inventory
       system and entering new equipment in the inventory system?
   •   How will the agency ensure compatibility with existing SuperDisk if new
       hardware does not have SuperDisk drives?

Recommendations:
  11. NCUA should prepare a definitive plan for the eventual replacement of the
      current leased computers with a new lease. This will require substantial
      upfront planning prior to April 2003.

       OED, OA, and OCIO agreed with this recommendation. According to OA,
       the tight time frames cause haste, which resulted in incomplete
       documentation. However the ISOC should and the contracting officer will
       ensure adequate time frames are established for future acquisitions of this
       nature. According to OCIO, planning has already begun for the next
       rollout.


   12. NCUA should consider developing a checklist to ensure compliance with
       relevant policies and procedures.

       OED, OA, and OCIO agreed wi th this recommendation. According to OA,
       the tight time frames cause haste, which resulted in incomplete
       documentation. However the ISOC should and the contracting officer will
       ensure adequate time frames are established for future acquisitions of this
       nature. OCIO will work with OA to develop a checklist.




                                                                               23
            Section II: WINDOWS 2000 MIGRATION
           OBSERVATIONS & RECOMMENDATIONS

   NCUA WAS NOT EXPOSED TO UNREASONABLE RISKS BY
          IMPLEMENTING WINDOWS 2000 EARLY

Our second objective was to determine if the agency was exposed to
unreasonable risks by implementing Windows 2000 prior to its general release
and use by the IT community. We determined that the agency implemented an
early copy of Windows 2000 that was obtained directly from Microsoft in
December 1999 and was the same release placed on store shelves in February
2000. We determined that there were risks with implementing Windows 2000
prior to its general use in the industry, however, those risks were not
unreasonable and many steps were taken to mitigate some of the risks.

Although the CIO is responsible for the agency’s architecture as defined in the
Clinger-Cohen Act of 1996, NCUA’s CIO informed the ISOC and OED of his
impending decision to migrate from Windows NT 4.0 to Windows 2000. The CIO
identified the benefits of Windows 2000 and took action to mitigate some of the
risks of early adoption. The upgrade to Windows 2000 was inevitable, so the
CIO weighed the options of adopting Windows 2000 with our new hardware or
waiting. Although there was insufficient documentation to determine the level of
testing performed, the post implementation results indicate that there were no
significant issues with our migration to Windows 2000.

As a result of our review, we identified several areas where the OCIO should
improve project planning and documentation and made appropriate
recommendations.

 CIO has Authority to Make Decisions           Both the Clinger-Cohen Act of
 about Architecture                            1996 and NCUA’s CIO position
                                               description indicate that the CIO
has the authority to make decisions about the agency’s architecture. Clinger-
Cohen mandated the position of chief information officer (CIO) in executive
agencies and departments and defined the general responsibilities of the CIO.
These responsibilities included designing and managing the agency’s
architecture and determining any changes necessary. Clinger-Cohen defines
architecture as “…an integrated framework for evolving or maintaining existing
information technology and acquiring new information technology…” In addition,
NCUA’s CIO position description states the CIO is responsible for the information
resources management program, and determining which aspects of available
and emerging technology best fit the needs of the agency. The General
Accounting Office’s Executive Guide GAO-01-376G, Maximizing the Success of
Chief Information Officers, describes the responsibilities of effective CIOs. CIOs



                                                                               24
“…also centrally manage architectures and a core set of infrastructure
components to provide common IT services to the entire corporation. The
corporate CIO works with … other information managers in each of the business
units to ensure efficient, reliable, and interoperable technology for the entire
corporation.” 1

As stated above, the Clinger-Cohen Act of 1996 invests the CIO with
responsibility for implementing a sound and integrated information technology
architecture for the agency. The position description for what is now designated
the CIO position within NCUA 2, which was amended on November 11, 1996, to
include CIO duties as a result of Clinger Cohen, reiterates this responsibility.
Although Clinger-Cohen’s reach does not, in a strictly legal sense, extend to
NCUA, the observance of the “best practices” 3 principle makes it incumbent upon
NCUA to consider the responsibilities set forth under Clinger-Cohen. In
implementing Windows 2000, the CIO abided by both the responsibilities set
forth in the Act, as well as in his position description. Moreover, in accordance
with Part 790 of NCUA rules and regulations, the CIO informed the ISOC and the
Office of the Executive Director (OED) of his impending decision to migrate from
Windows NT 4.0 to Windows 2000.

The ISOC was reestablished on July 15, 1999, without a charter, and their
responsibilities were not clearly defined. Interviews of the former ED and former
DED indicated that the intent of the reestablished ISOC was to have oversight of
major IT investments. The ISOC’s main focus from July 1999 through March
2000 was to oversee the $9.38 million purchase of hardware that included
notebooks for all agency employees. There was a consensus among most
ISOC members that although the CIO is ultimately responsible for the
architecture, major technology decisions impacting the agency should be
presented to the ISOC. ISOC members agreed that they wanted to be informed
about any major IT decisions. However, they had differing opinions on who
should make the decision about technical issues such as the agency’s
architecture, including the operating system. Many of the ISOC members did not
feel comfortable making these types of decisions due to their lack of technical
knowledge and felt the CIO was better positioned for this type of decision. Most
board members and the former OED felt decisions regarding operating systems
should be made by either by the ISOC or CIO.

    Recommendation:
    13. The agency head should clearly define the roles and responsibilities of all
        key personnel in relation to information systems. All key personnel should
        be informed of their responsibilities and have sufficient authority to

1
  GAO Report #GAO-01-376G, Maximizing the Success of Chief Information Officers
2
  Agency Position No. 9774.
3
  In the area of information technology, “best practices” are defined as techniques that agencies,
as well as private industry, may use to ensure reliable, timely access to information as well as
effective management of information technology resources.


                                                                                                25
      exercise the role and responsibility assigned to them. Specifically, the
      ISOC needs a charter with clearly defined responsibilities and
      accountabilities, and the CIO’s responsibilities and accountabilities need
      to be clearly defined to help manage expectations and performance. All
      key personnel should indicate their acknowledgement of such
      responsibilities and accountabilities.

      Although the CIO agreed with this recommendation, it was noted that
      defined responsibilities must be consistent with the legal constraints of
      Clinger-Cohen.


 ISOC and OED were Informed of                  Regardless of who has the
 Impending Decision to Migrate to               authority to make decisions to
                                                change or upgrade operating
 Windows 2000
                                                systems, the decision regarding
                                                the migration to Windows 2000
was made after informing the ISOC and OED. The ISOC and OED were aware
of the discussions to upgrade to Windows 2000, and there were no dissenting
opinions. Although we determined that the ISOC and OED were informed of the
impending decision to migrate to Windows 2000 through management reports
and meetings, it was not clear what level of information was presented.

The ISOC was informed in late Summer/Early
Fall 1999 about the possibility of proceeding with
Windows 2000 and that testing results would
determine whether we go with Windows 2000 or
stay with NT. We interviewed all ISOC members
and they had differing recollections of specific
discussions surrounding Windows 2000. The
ISOC Chairman and Director of E&I stated that
the Director of E&I had considerable influence in
the decision to migrate to Windows 2000 due to his responsibility for AIRES. The
Director of E&I felt it was a good decision to go with Windows 2000 with our new
hardware rather than wait. Some ISOC members felt they were fully informed of
the risks and benefits, while other members would have preferred more
information. Unfortunately, the minutes of ISOC meetings were not adequate to
determine what specific information was presented. Further discussion with
former OED and some ISOC members revealed that they did not ask enough
questions or relied on the CIO to make the appropriate decision.

Documentation in the management and quarterly reports issued by the CIO show
that there was a possibility of migrating to Windows 2000, but they did not
indicate specific reasons for our potential upgrade. The OTIS Update August 5,
1999, reflected that we were testing AIRES with Windows 2000 and Office 2000.
The management report distributed in September 1999, noted we were testing
Windows 2000, Office 2000, and Outlook for possible use in our next generation


                                                                                  26
notebook and performing controlled testing of AIRES on a beta version of
Windows 2000. The management report distributed in October 1999 stated that
parallel exams were performed using upgraded computers and a beta version of
Windows 2000. However, the documentation prepared did not reveal the specific
risks and benefits of migrating to Windows 2000.

   Recommendations:
   14. The ISOC Chairman should ensure that detailed minutes of all ISOC
       meetings are maintained and distributed timely to ISOC members, OCIO,
       OED, and OIG.

      OED and OCIO agreed with this recommendation.

   15. To ensure the ISOC and OED are adequately informed of major IT
       decisions affecting the agency, the CIO should prepare a business case
       analysis of all major information technology decisions for the ISOC and
       OED. This documented analysis could include any of the following:
          o   Statement of the problem to be remedied or process to be
              improved, and how it will enhance NCUA’s ability to achieve its
              goals;
          o   Risk assessment;
          o   Cost/benefit analysis;
          o   Options available;
          o   Resources required,
          o   And estimated schedule of implementation milestones.

      OED and OCIO agreed with this recommendation. OCIO will improve
      documentation during the next acquisition cycle.


 The Benefits of Migrating to Windows         Although there were risks to early
 2000 Early Outweighed the Risks              adoption of Windows 2000, the
                                              benefits outweighed the level of
risk. Windows 2000 had many improvements over Windows NT 4 such as better
stability, enhanced security, mobile user benefits, and many other operational
improvements. The risk of migrating to Windows 2000 before the general
population was also mitigated by Microsoft’s level of beta
testing as well as NCUA’s involvement in beta testing, the
timing of our hardware replacement, and training/contractor
support with Windows 2000 experience.

Windows 2000 was beta tested by more organizations than
previous versions of Windows, and beta testers generally opined that Windows
2000 was more stable and secure than NT prior to its official release in February
2000. Many independent reviews and tests performed by the industry support
these statements. Although there was much debate in the industry of when to



                                                                                 27
migrate to Windows 2000, there was a consensus that the timing of migration
depends on the hardware replacement strategy. In December 1999, a well-
respected, independent information technology consulting firm recommended
deployment of Windows 2000, as part of the hardware replacement strategy and
organizations should “begin deploying new systems that ship with Windows 2000
without waiting for Service Pack 1”. In addition, several other industry experts
had similar views.

During NCUA’s beta testing, several OC IO staff indicated they felt confident with
Windows 2000 late fall 1999. Most OCIO staff opined that by the end of 1999 the
beta was more stable and provided many enhanced features over NT. The
ADT/TDG testers we interviewed also opined that the AIRES p latform was pretty
stable at the end of 1999. However, they revealed that unforeseen problems
were encountered in January 2000 when we received the final AIRES platform.

Improved security features include stronger out of the box security. Microsoft
has configured Windows 2000 so when it is installed out of the box without
“flipping any switches” it is more secure than NT. NT required you to “flip the
switches” to enhance the security. This required system administrators to have
knowledge of these configuration switches and physically “check the box”. In
addition, Windows 2000 supports encryption, virtual private networks, SecurID
token, and strong authentication. Virtual private networks are a secure way of
allowing a remote user to connect to the network. NCUA plans to support virtual
private networks in the future to increase the security of our platform and
systems. SecurID token is a feature that provides for secure remote access.
NCUA implemented this feature with the rollout of new hardware and migration to
Windows 2000. Windows 2000 has a feature that allows administrators to
increase the security of local machines by preventing users from installing
software and changing important system files. This feature also prevents users
from viruses that attempt to change system settings and important system files.
The CIO made a policy to “lock down” all agency computers with this feature.

Mobile user advantages in Windows 2000 include the power management
feature, offline files feature, and e ncryption. The power management feature
allows you to conserve power when the computer has been inactive by turning
off the monitor and/or hard disk. In addition, power management will put your
computer in hibernation or standby after a specified period of time. You can also
set an alarm when you battery power is getting low.




                                                                               28
The offline feature allows a user to download files from the network to their
workstation so they can view these files while not connected to the network. This
feature also a llows users to make changes to these documents and synchronize
the document when they reconnect to the network.

Encryption provides for a secure method of protecting files and data on the
workstation. The inherent walk-away ability of a notebook makes it highly
susceptible to theft. Encryption protects the data on the hard drive so
unauthorized users cannot gain access to sensitive files and data.

Some of the operational benefits include better stability, more robustness, less
maintenance, better control of user workstations that minimizes accidental
configuration or system file changes, easier distribution of software to staff, and a
consistent platform across the agency.

Some of the risks migrating to Windows 2000 in early 2000 were the immaturity
of this version of the operating system, vendor compatibility, uncertainty of
delivery date, and staff’s lack of knowledge in the new features of the operating
system. Any potential problems with a new operating system would be revealed
during the first year after release. Since we implemented early, we would be
subject to these potential problems.

When a new version of an operating system is released, most of the old features
have been streamlined and integrated with new features such as Active
Directory. The inherent risks found in a new operating system will primarily be
found within new features resulting in “bug” reporting and needed patches. The


                                                                                  29
risks in the new operating system will decline as the general use and reporting of
issues increases. As users identify “bugs”, they will be fixed and applicable
patches will be made available. Service Pack 1 was issued in July 2000 and
contained several patches that fixed minor issues with Windows 2000. This
service pack was “designed to ensure Windows 2000 platform compatibility with
newly released software and drivers, and contains updates that fix issues
discovered by customers or via internal testing.” 4

Just as the operating system is new and has inherent risks, hardware vendors
must create new drivers for the new operating system to work with their devices.
Because the product is so new, it is possible that the hardware vendor has not
created the drivers for your specific equipment. However, if you are buying new
equipment the odds are greater that the hardware vendor has created such a
driver. Also, many of the large hardware vendors work with Microsoft and have
advance knowledge of the new operating system, so they are ahead of the curve
in creating the necessary drivers. Compaq worked closely with Microsoft since
1996, and a majority of Windows 2000 code was developed and tested on
Compaq equipment.

Software vendors must also modify their software to take advantage of the new
features of the operating system. Just like hardware vendors, most large
software vendors work with Microsoft in the early stages of development to
create software that is compatible with the operating system. If the hardware and
software vendors did not work with Microsoft, they would be behind other leading
companies and would lose significant market share of their product. One
example of where we were affected by a software vendor not ready for the new
operating systems is virus protection. As a result, we rolled out the notebooks
without desktop virus protection. Although there was no virus protection on the
desktop, OCIO incorporated several mitigating controls to protect us from
potential viruses. These controls included the lockdown, network virus
protection, and real-time virus scanning on the mail server.

We received Windows 2000 on December 24, 1999, the notebooks arrived in
January 2000, and the training was scheduled for March 2000. There was no
room for slippage in the schedule. If we did not meet the schedule in Denver, the
agency would have lost up to $495,698 for the hotel training facility. However, if
we did not receive Windows 2000 by the end of the year, we would have quickly
reverted to our contingency plan using NT so we would not forfeit the hotel
penalty. This contingency plan is discussed further below.

There were fundamental changes in Windows 2000 that required training and
education to learn the new features and how to implement them effectively. Due
to OCIO’s lack of Windows 2000 knowledge and experience, the OCIO hired a
contractor to train OCIO staff and assist in setting up the configuration. This


4
    Windows 2000 Service Pack 1 Market Bulletin, July 31, 2000, Microsoft web site


                                                                                     30
contractor also reviewed our configuration to ensure of its viability and make
improvements before we rolled out the system.

There were other risks that were not Windows 2000 related. These risks
included the computers not ready; AIRES not ready; the hotel not ready;
incompatibility between the new notebooks, Windows 2000, Office 2000, and
AIRES 2000; a snowstorm in Denver preventing delivery of the equipment; key
OCIO staff becoming ill or incapacitated before the final platform was complete.


 The Best Long Term Option Available            We had three options for migrating
 was to Migrate to Windows 2000 with            to Windows 2000 and the least
 NCUA’s New Hardware                            disruptive and most beneficial
                                                option to the agency was to
migrate to Windows 2000 in connection with our notebook replacement. Industry
literature indicated your migration to Windows 2000 should coincide with your
hardware replacement strategy. In addition, interviews of agency staff and
managers disclosed important details that support our early migration to
Windows 2000. As a result of our early migration, the agency has saved
significant resources and will benefit from the many enhanced features of
Windows 2000.

The three options NCUA had with regard to
migrating to Windows 2000 were:
• We could migrate to Windows 2000 when we
   received our new hardware
• Rollout NT with the new hardware, and
   upgrade to Windows 2000 a year or so later
• Rollout NT with the new hardware, and wait for
   our next hardware replacement three years
   later.

If we waited a year to upgrade to Windows 2000, it would have required
significant resources, both time and money, to upgrade the machines later for our
remote population. To upgrade a computer from NT to Windows 2000, it would
have required an OCIO staff person to touch every computer. Upgrading an
operating system on existing hardware is not a simple task that can be delegated
to a user. In addition, we would have delayed the benefits of Windows 2000
including better security and control. If we waited three years to migrate to
Windows 2000, the agency would have incurred higher IT maintenance costs
and Microsoft probably would not be supporting NT.


 Project Management and Planning               There was no one project manager
 Need to be Enhanced                           assigned to oversee the entire
                                               effort from development through
distribution. Staff personnel and contractors assumed many of the


                                                                                 31
responsibilities. There was a project manager that managed the logistics and
distribution. One key OCIO manager delegated much of their responsibility to a
contractor. Another key OCIO manager delegated much of their responsibility to
staff. The CIO was heavily involved in overseeing the entire process from
planning through implementation, and the Deputy CIO was involved in the
acquisition and procurement process. A contractor and staff employee assumed
many of the responsibilities of the project, and without their efforts, the outcome
of the project would have been at risk. A mitigating control was frequent
meetings within OCIO to discuss issues encountered and their resolution.

Although there was a project plan for our rollout and distribution of our new
platform, this project plan was not detailed. The plan was missing critical steps,
deliverables, milestones, and identification of dependencies. We were not
presented with any analysis of minimum requirements for Windows 2000
migration, analysis of each application to determine what effort was required to
ensure compliance with Windows 2000, or analysis of resources required to
perform the various migration tasks for compliance with Windows 2000. It
appeared that NCUA applications were not migrated to Windows 2000 until
late1999 due to the lack of a detailed project plan. The CIO later informed us
that limited resources and internal resistance also were key factors.

Although some staff had concerns about the timing of the migration to Windows
2000, most staff felt confident they could meet the schedule. However, there
was resistance from a key OCIO staff member regarding the migration to
Windows 2000 with the notebook rollout. This resistance was presented with
arguments of why NCUA should wait. Although many reasons were presented
for staying with NT, very little was offered for consideration for the anticipated
Windows 2000 migration. This internal resistance appeared to have a negative
impact in the migration and deployment of Windows 2000.

Although the final configuration was documented, there was insufficient
documentation regarding the control over the changing configuration and multiple
versions on the different test machines. Since there was a lack of documentation
regarding the configuration process, we had to rely on interviews that indicated
user privileges were configured inconsistently. The software version control for
Windows 2000 had an impact on the testers in the field. These conditions
included testers having different releases of Windows 2000 and different security
levels. Although some of this inconsistency could be attributed to timing
differences with our remote staff, there was inadequate version control to ensure
all testers and developers were using the same platform and version of
applications. It is critical in a test environment to ensure everyone is on the same
version with the same configuration. Otherwise, a tester could be identifying
bugs in an old version, or miss testing features that may be inadvertently broke in
a new version.




                                                                                 32
Recommendations:

  16. Assign a Project Manager to major projects that has authority and
      responsibility to ensure all critical tasks are performed, keep everyone on
      schedule, make modifications in the plan if required, make critical
      decisions, and resolve problems. The role of a project manager should
      be given to a key individual with responsibility for coordinating all efforts:
      notebook acquisitions and distribution, software development and testing
      schedules, configuration and migration, contingency planning, and
      delivery schedules.

     OED and OCIO agreed with this recommendation. OCIO will formally
     designate an overall project manager to the next computer renewal
     project.

  17. Develop project plans that include the steps and resources required,
      allocation of responsibilities and authorities, priority level of each step,
      dependency relationship between steps, critical milestones, test
      documentation, and approval procedures. A project plan can assist in
      estimating the effort involved and resources required to ensure the
      successful outcome of a project, ensure all critical tasks are performed, as
      well as give indicators when a project is slipping and needs to be modified
      or killed.

     OED and OCIO agreed with this recommendation. OCIO will enhance
     large-scale project planning with a comprehensive project plan to include
     these items during the next computer renewal project.

  18. Monitor budgeted versus actual project milestones and costs and report to
      senior management throughout every major project phase.

     OED and OCIO agreed with this recommendation. According to OCIO,
     they monitored project milestones and informed ISOC and agency senior
     managers through meetings and management reports. OCIO will formally
     report milestones to the ISOC and OED during the next computer renewal
     project.

  19. Develop procedures to ensure adequate version control and configuration
      from the development and testing process through production.
     OED and OCIO agreed with this recommendation. OCIO will formally
     document version control and the configuration management process
     during the next computer renewal project.


 Insufficient Evidence to Determine the        We were repeatedly told extensive
 Amount and Level of Testing                   testing was performed on Windows
 Performed
                                                                                   33
2000, however we were unable to determine the level of testing that was
performed because of the lack of documentation and various memory
recollection. Although we cannot conclude whether sufficient testing was
performed on the Windows 2000 platform, with a project of this magnitude the
post rollout problems would have been more significant and frequent than we
had encountered if there was insufficient testing. This is not to say that we didn’t
have any problems, because we did. However, the problems encountered had
simple workarounds or were not significant to stop work. Some of the problems
were difficult to isolate since we changed the hardware, operating system, Office
version, and AIRES simultaneously. To say the problems were primarily due to
the operating system would be a presumptive statement. For further discussion
of the post rollout issues see below.

There is indication that we started field-testing the Windows 2000 beta in August
1999. Field-testing provides many benefits because users in their environment
use real world examples in testing. Management reports and OCIO staff indicate
ADT/TDG were provided with new IBMs with Windows 2000 beta, Office 97, and
AIRES 2000. Although some testers do no recall seeing Windows 2000 until
January 2000, when prompted to identify the differences in the operating system
they were not certain how to tell the difference between Windows NT and
Windows 2000. There was no test documentation that indicated the platform
tested, when it was tested, what items were tested, etc. Although E&I
maintained a database with the test results of bugs found in Aires 2000, there
was no documentation that demonstrated the features that worked properly. In
addition, there is no documentation to support testing of other custom NCUA
applications. Interviews indicate that developers tested the other applications,
but we have not seen any evidence to show what was tested, when, how, or
who.

In mid January 2000, testers received the new Compaqs with the final release of
Windows 2000 and Office 2000 for final testing. All major areas of AIRES 2000
were working prior to the issuance of the Compaqs with the Windows 2000 RTM
to field testers. New problems started occurring with AIRES 2000 and AIRES 16
on these computers that were not occurring on the IBM 600E test computers
using the Windows 2000 platform, beta version 3.

   Recommendations:
   20. Test documentation needs to be strengthened by the OCIO and the Office
       of Primary Interest. The key aspects of testing include development of an
       adequate test plan, execution of the test plan, and the analysis and
       reporting of test results. The test plan should indicate the system
       functions and cross reference them to tests designed to validate the
       correct operation of those functions. Test results should indicate the
       actual results and pass/fail status of those tests and relate the results to
       the function, indicating whether it performs correctly. There should be a
       tracking mechanism to ensure that all issues reported are resolved and


                                                                                  34
      retested. The test report should indicate what works and does not work,
      as well as the test group’s opinion on the adequacy and acceptance of the
      system. Testers must be independent of the development process.
      Attempting to test 100% of an application or system should never be a
      goal, because not every feature or function of a system is worth testing.
      Testing should be risk based and focus on all critical features of the
      system, areas whose failure would cause the most damage and disruption
      to the organization.

      OED and OCIO agreed with this recommendation. According to OCIO,
      they will work jointly with E&I to strengthen testing documentation during
      the next computer renewal project.

   21. All major system changes should be thoroughly tested and subject to an
       independent review by Quality Assurance before it is introduced into the
       production environment.

      OCIO agreed with this recommendation. According to OCIO, they
      significantly increased the amount, and improved the quality of testing on
      this project, as demonstrated by the quality of the product distributed to
      end users and the overall success of the entire conversion. Although
      OCIO feels strongly about the QA process, this is a resource issue that
      will be addressed in the OCIO budget for the next computer renewal
      project.


 The Contingency Plan to Revert Back             We do not have any evidence to
 to NT was Questionable                          support that NT was a viable
                                                 contingency plan. We were
informed that if Windows 2000 was not ready for our use in time, our contingency
plan was to continue with the NT platform. Although OCIO management and
staff indicated this was the plan, they were unable to articulate what was involved
to ensure this was a viable option. We were presented with varying opinions of
the steps involved, as well as the time involved to activate the backup plan
successfully. We were informed it would take anywhere from a few days to a few
months to ensure sufficient testing of all applications on the NT platform. In
addition, there was no firm date that would trigger our plan to go back to NT.
Compounding the plan to revert to NT was that in Fall 1999 development had
switched to a Windows 2000 development environment due to time constraints.
Although, there was indication that all programs had to be ready for a Windows
NT 4/Office 2000 environment, there were varying degrees of skepticism that
AIRES could be quickly reverted back to NT with all subsequent changes since
the switchover to Windows 2000 in Fall 1999.

In addition to the option of reverting back to NT, OCIO projected the regional
conferences would be used for any issues that were encountered after the initial
distribution. With any hardware or software upgrade, you can expect there to be


                                                                                  35
some issues that need to be tweaked. The timing of the regional conferences
allowed a couple of months for identification and resolution of problems. Some
of the issues identified after the initial rollout, such as power management, BIOS
upgrades, and minor software upgrades, were patched and resolved during the
regional conferences. Further discussion of the post rollout issues is discussed
below.

Recommendation:
  22. Prepare and document contingency plans for significant upgrades. Some
      of the items to be considered in the plan are critical steps to be performed,
      resources required, trigger dates, and dependencies. A well-supported
      contingency plan should also be tested to ensure its effectiveness. A
      contingency plan should be well documented to identify all the steps
      necessary to have a successful backup plan. When there is a need to use
      a contingency plan, often there is inadequate time to ensure all the
      necessary steps are performed, and as a result some things are
      overlooked. A well documented and communicated plan ensures that all
      critical steps are identified and performed.

      OED and OCIO agreed with this recommendation. According to OCIO,
      the contingency plan was to stay with the current operating platform
      (Windows NT). However, OCIO will document a formal contingency plan
      for critical steps in the next computer renewal project.


 NCUA Rolled Out an Early Release of          We determined that NCUA rolled
 a Commercial Version of Windows              out the first available non-beta
 2000 – This Early Release was the            version of Windows 2000, which is
 same as the Public Release on                called the Release to
 February 17, 2000                            Manufacturing (RTM) version,
                                              which had limited availability prior
to release on store shelves. The RTM was build 2195, which is the same build
as the current commercially available product. We verified that the RTM is the
same product that was released on store shelves in February 2000.

A beta version is a software product in process of being tested by the user
community to put the product through real world testing and flush out any bugs.
It is very common in the information technology field to obtain and test beta
versions of software. This is not unique to NCUA. Many corporations and
agencies evaluate betas in order to familiarize themselves with the product and
determine whether they may want to upgrade in the future. The evaluation of a
beta product aids IT shops in their decision making process.

We obtained our beta version thru a developers’ software package that we
subscribe to. We began testing Windows 2000 because there was a possibility




                                                                                36
we could use this new and improved operating system with our approaching
notebook purchase.

Although it was not certain when Windows 2000 would be released commercially
(at the time, it was anticipated for release in October 1999), there was a strong
possibility it would be released before we received our new hardware. Because
of the many improvements and enhanced features in Windows 2000, the CIO
recognized the benefits of implementing Windows 2000 as soon as possible. It
was clear that the IT industry would be moving in this direction and that Windows
2000 would be the preferred operating system of the near future. At the time we
started evaluating the Windows 2000 beta, the funding had not been requested,
hardware had not been ordered, and training had not been scheduled. NCUA
could not determine which operating system we would use without knowing the
specific timeframe involved and internal testing results of the new operating
system. The CIO’s preference was to migrate to Windows 2000 if there were
indications of stability and availability, rather than distribute Windows NT with our
new hardware and a year later go through the extensive, as well as expensive,
process of upgrading all the hardware to Windows 2000. The CIO had a vision
of how Windows 2000’s improvements would directly enhance NCUA’s
architecture and reduce costs in the long run, as well as the logistical nightmare
of upgrading users machines (majority of them remote users) from Windows NT
to Windows 2000. An informed decision regarding the operating system could
not be made without evaluating the Windows 2000 beta. The beta evaluation
gave us a head start on learning the enhancements and operations of this new
operating system. It was late fall 1999 when the CIO felt confident that Microsoft
would release Windows 2000 to manufacturing by the end of the year. It was
late November, early December 1999 when Microsoft gave the CIO assurance
that they would provide NCUA with the first available copy of Windows 2000 by
the end of the year.

The first Windows 2000 version we placed in production was the RTM version.
This is the first version available after beta. According to Microsoft, this was the
same version that is packaged for commercial release and put on store shelves
in Mid February. The fact that we received it two months before it hit store
shelves does not indicate it was a different product. It takes about this long for
the manufacturer to mass produce CDs and documentation, package, and
distribute to stores. Due to the critical timing of our rollout, Microsoft provided
NCUA with this early release at the end of December 1999. We also verified that
the original version of Windows 2000 Professional on our computers is the same
version after Service Pack 1.


 Post Implementation Results Show              There was an overwhelming
 No Major Issues                               consensus that the issues
                                               encountered after training and
implementation were either insignificant or minor with workarounds. We
interviewed several Office Directors, RD and ARDs. Most were happy with the


                                                                                  37
final platform and indicated there were only mino r problems. Most of the people
we interviewed opined that the platform was more secure and stable than NT and
more flexible for travelers. Service Pack 1 was issued in July 2000 and had
minor impact on NCUA issues.

There was inconsistency in the perception of problems during the first training
sessions. One ARD from the first training session in Denver indicated there were
only minor problems, while other staff indicated there were more serious issues
encountered during this training session. The AIRES project manager and
AIRES developer indicated that most AIRES issues were resolved by the last
training session in Denver.

OCIO and Help Desk staff indicated post rollout issues were minor. They
indicated there were issues with the Bios, power management, drivers, and
lockdown. The Bios issue caused problems with the battery and Superdisk. A
chip in the battery conflicted with the bios causing the battery to die. The solution
was to get a new battery or plug it in. The Superdisk would not work via the
parallel port, however it would work in the MultiBay. There was an issue with the
power management feature when the system was left idle. Some of the drivers
were not available, but the effect on NCUA was insignificant. Although the DVD
device driver was not available, the DVD could still be used as CD. There were
some issues with printer drivers, but most of these issues were resolved by
obtaining an alternative driver from the manufacturer. Although there was limited
desktop virus protection with the new notebooks, this was mitigated by real-time
scanning on the e -mail server and network. The help desk staff indicated there
was a low incident rate of viruses during this period.

There has been controversy surrounding the policy to “lockdown” local user
machines. The lockdown is recommended by Microsoft to increase the security
of local machines. But with security, there is a price. That price is the inability of
users to load software, add printer drivers, and change critical system files.

Service Pack 1 became available in July 2000 and repaired minor issues. “SP1
was designed to ensure Windows 2000 platform compatibility with newly
released software and drivers, and contained updates that fixed issues
discovered by customers or via internal testing. The main areas addressed by
this service pack were:
    • Application and hardware compatibility
    • Windows 2000 setup
    • Operating system reliability
    • Security, including the latest updates for known Windows 2000 security
       issues.” 5




5
    Windows 2000 Service Pack 1 Market Bulletin, July 31, 2000


                                                                                    38
                                                                APPENDIX

        Simplified Procurement Policy and Procedures

•   Contracting officer has broad discretion in fashioning suitable evaluation
    procedures; and
•   Formal evaluation plans and establishing a competitive range, conducting
    discussions, and scoring quotations or offers are not required.
•   Contracting officer must determine that the proposed price is fair and
    reasonable; and
•   Keep documentation to a minimum. For solicitation up to $5million, a brief
    written description of the procedures used in awarding the contract, the
    number of offers received, and an explanation of the basis for the contract
    award decision; and
•   Limit written records of solicitation or offers to note or abstracts to show
    prices, delivery, references to printed price lists used, the suppliers
    contacted and other pertinent data.
•   Contracting officers shall not solicit quotations based on personal
    preference or restrict solicitation to suppliers of well-known and widely
    distributed makes or brands.
•   Contracting officers shall promote competition to the maximum extent
    practicable;
•   Notify potential quoters or offerors of the basis on which award will be
    made;
•   Establish deadlines for the submission of responses to solicitations that
    afford suppliers a reasonable opportunity to respond;
•   Consider all quotation or offers that are timely received;
•   Evaluate quotations or offers in an impartial manner, inclusive of
    transportation charges, on the basis of established in the solicitation, and
    consider all quotations or offers;
•   Use innovative approaches, to the maximum extent practicable, in
    awarding contracts using simplified acquisition procedures;
•   Comply with policy relating to economic purchase of quantities, when
    practicable;
•   Satisfy procedures with respect to Certificates of Competency before
    rejecting a quotation from a small business concern determined to be
    nonresponsible;
•   Provide for the inspection of supplies.
•   Contracting officers should include related items (such as small hardware
    items) in one solicitation;
•   Make maximum effort to obtain trade and prompt payment discounts
•   Maintain a source list of small businesses, small disadvantaged
    businesses and women-owned small businesses.
•


                                                                             39
                                                                 APPENDIX


•   Standing prices may be used if pricing is current and the agency obtains
    the benefit of maximum discounts before award.
•   Purchase orders are generally on a fixed price basis for the acquisition of
    commercial items;
•   Specify the quantity of supplies;
•   Contain a determinable delivery date;
•   Provide for inspection and acceptance of goods.




                                                                              40
